<html>
<title> - FLORIDA'S COASTAL ECONOMY: OPPORTUNITIES AND CHALLENGES IN THE FLORIDA KEYS</title>
<body><pre>[Senate Hearing 116-280]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-280
 
FLORIDA'S COASTAL ECONOMY: OPPORTUNITIES AND CHALLENGES IN THE FLORIDA 
                                  KEYS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                          AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2019

                               __________

      Printed for the use of the Committee on Small Business
                      and Entrepreneurship
                            
                            
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           




        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                          ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 39-848 PDF           WASHINGTON : 2020 
 
 
        
        
        
            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED SIXTEENTH CONGRESS

                              ----------                              
                     MARCO RUBIO, Florida, Chairman
              BENJAMIN L. CARDIN, Maryland, Ranking Member
JAMES E. RISCH, Idaho                MARIA CANTWELL, Washington
RAND PAUL, Kentucky                  JEANNE SHAHEEN, New Hampshire
TIM SCOTT, South Carolina            EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
JAMES M. INHOFE, Oklahoma            CHRISTOPHER A. COONS, Delaware
TODD YOUNG, Indiana                  MAZIE K. HIRONO, Hawaii
JOHN KENNEDY, Louisiana              TAMMY DUCKWORTH, Illinois
MITT ROMNEY, Utah                    JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri
             Michael A. Needham, Republican Staff Director
                 Sean Moore, Democratic Staff Director
                 
                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Rubio, Hon. Marco, Chairman, a U.S. Senator from Florida.........     1

                               Witnesses

Benson, Mr. Will, CEO, World Angling, Inc., Sugarloaf Key, FL....     6
Gastesi, Mr. Roman, County Administrator, Monroe County, Key 
  West, FL.......................................................    18
Mitchell, Ms. Stacey, Director of Marketing, Monroe County 
  Tourist Development Council, Key West, FL......................    11

                          Alphabetical Listing

Benson, Mr. Will
    Testimony....................................................     6
    Prepared statement...........................................     8
Gastesi, Mr. Roman
    Testimony....................................................    18
    Prepared statement...........................................    20
Mitchell, Ms. Stacey
    Testimony....................................................    11
    Prepared statement...........................................    15
Rubio, Hon. Marco
    Opening statement............................................     1


                       FLORIDA'S COASTAL ECONOMY:

                  OPPORTUNITIES AND CHALLENGES IN THE

                              FLORIDA KEYS

                              ----------                              


                        FRIDAY, OCTOBER 4, 2019

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                      Marathon, FL.
    The Committee met, pursuant to notice, at 10:17 a.m., at 
the City of Marathon, 9805 Overseas Highway, Marathon, Florida, 
Hon. Marco Rubio, Chairman of the Committee, presiding.
    Present: Senator Rubio.

OPENING STATEMENT OF HON. MARCO RUBIO, CHAIRMAN, A U.S. SENATOR 
                          FROM FLORIDA

    Chairman Rubio. Hello. Good Morning. We use this dais in 
this facility here today.
    Let me begin with Commissioner Michelle Coldiron is here. 
Thank you so much for coming by. I appreciate it this morning.
    From Mote Marine Institute, Allison Delashmit. Thank you so 
much for being here. You guys do phenomenal work.
    Our city manager from Marathon, Chuck Lindsey, is here, 
along with council member Luis Gonzalez. Or were here. You are 
still here. There you are, way out back there.
    Steve Cook, vice mayor of Marathon, as well. And the mayor, 
John Bartus.
    So we have a quorum. Right? All right.
    Mark Senmartin from Marathon, our council member. Dan Zieg.
    We keep--we really do have a quorum. All right. Good.
    From the office of State Representative Holly Raschein is 
Sara Craven and Julio Rodriguez. She is a great friend, does a 
great job. Thank you for being here.
    A former colleague of mine in the State House, now I guess 
he is a member of the media. He is always walking around with a 
recorder. Ron Saunders, way there in the back. And he is an 
aggressive member of the media. He ran up, and we have done a 
lot of interviews together. Ron, it is always good to see you.
    So thank you all for being here.
    The purpose of this hearing is to examine both the unique 
opportunities and the challenges that are facing the coastal 
economy here in Monroe County in the Florida Keys.
    These islands boast truly Floridian industries, such as 
fishing and diving, and other activities that are directly and 
indirectly related to tourism. It is a mecca for small 
businesses that thrive around these industries, whether 
directly or indirectly servicing them.
    And this is a very special part of the State. It is a place 
where I know generations of families--and so in my family, have 
created traditions and memories--mostly very good memories and 
some funny ones.
    And it is a place where people from all over the world 
travel. I am always surprised when I run into people not just 
from all over the world, but colleagues and people I interact 
with in Washington who have been here quite a bit. Although, I 
am not sure they want people to know they are coming down here, 
which is part of the great ability to come down here and sort 
of lose yourself and be here as opposed to escape the world.
    There is a--I always tell people this truly is some sort of 
a magical thing that happens as you get on U.S. 1 and head 
south. The world seems further and further away, and you can 
really spend some time decompressing. And it is a very unique 
part of our State, and we are glad to have it.
    Five million people come here annually by most estimates. 
It is also what we like to call, or know it is--we take pride 
in saying it is the fishing capital of the world. In fact, 
according to Florida Fish & Wildlife Conservation Commission, 
there are approximately four million salt water recreationally 
licensed anglers in the State.
    Which reminds me--no, mine is current. I just saw it the 
other day. But I actually lost it and somebody dropped it in 
the mail and sent it back. Very nice of them to do that. I left 
it somewhere.
    But, there were 2.3 million of these licenses sold just in 
the last fiscal year. That resulted in $37 million in total 
salt water license sales.
    Salt water recreational fishing has an economic impact 
which is astounding. It is approximately $11.5 billion. It 
supports over 106,000 jobs across the State of Florida. 
According to NOAA, Florida's commercial fisheries generate $3.2 
billion in income and support over 76,000 jobs. So that's 
approximately 200,000 jobs between commercial and recreational 
fishing. And I actually think the numbers are higher if you 
become creative and realistic at the same time about how you 
identify the jobs in the industries that help support or are 
supported by fishing.
    This county, Monroe County, also has several Federal 
agencies as partners. That includes the Coast Guard; the Navy; 
NOAA, as I mentioned; the Weather Service. But, tourist-related 
industries have such a significant impact on the coastal 
economy throughout the county. It is vital that these important 
Federal partners fulfill their role as it relates to that and 
uphold their obligations in working with our State and our 
county officials.
    Having access to weather-related data, such as up-to-date 
weather forecasts, meteorological data, and information 
pertaining to tides, seas, and storms, is imperative to both 
the safety of the county residents and to the success of the 
small businesses and the entrepreneurs that call the Florida 
Keys home.
    Additionally, NOAA is responsible for the Florida Keys 
National Marine Sanctuary, which is jointly managed with the 
State. The sanctuary protects nearly 3,000 nautical miles of 
truly unique coastal waters. It is the home to more than 6,000 
species of marine life and includes a significant stretch of 
the third largest barrier reef on the planet.
    While we Floridians have a real responsibility and 
obligation to preserve and protect our State's natural 
treasures and beauty, conservation efforts, frankly, are also 
vital to the success of the economy.
    In addition to my responsibilities here on the Small 
Business Committee, I am also a member of the Appropriations 
subcommittee that covers issues on Commerce, on Science, on 
Interior, and Environment. It is a very important subcommittee 
for our State and for this county.
    I am proud to say that last week we were able to approve 
several important items as part of the Appropriations bill that 
are critical to Florida and to this county.
    The bill includes $55.5 million for marine sanctuaries; 
$7.5 million for the marine debris program; $400,000 to monitor 
coral disease; $1 million for the South Florida Geographic 
Program to monitor coral health; up to $5 million for agencies 
to work with academic institutions and non-governmental 
research organizations to establish innovative restoration 
projects to restore degraded coral reefs.
    This is the second year in a row that we have secured 
explicit funding for reef restoration through this process. 
Last year's law resulted in NOAA issuing two grants worth more 
than $1.6 million to fund the planting of 114,000 corals within 
the Florida Keys National Marine Sanctuary by Mote Marine Lab 
and the Coral Restoration Foundation.
    We have a ways to go, by the way, before we send these 
funding measures to the President and they become permanent, 
but I am hopeful that this year, this Fiscal Year, we will be 
able to build upon last year's investments.
    Working together with partners, our State can ensure 
visitors and residents alike will have the opportunity to take 
advantage of world class diving and snorkeling, boating, and 
fishing. Not just now, but for generations to come.
    But despite our best efforts, the reality is these Florida 
Keys have always been vulnerable to the threat of hurricanes. 
This remarkable island chain has endured many storms throughout 
its extraordinary history. The most recent, of course, being 
the category 4 monster that hit approximately 30 miles from 
where we sit right now on the 10th of September of 2017. The 
economic losses to the State were in the tens of billions.
    According to Monroe County, I got this right off the 
website, of the 55,000 housing units in the Keys, nearly 1,200 
homes were completely destroyed by that storm, with nearly 
3,000 homes suffering major damage. Here in Marathon and in the 
City of Key West, not a single home escaped unscathed.
    As the Chairman of this Committee, one of my chief 
responsibilities is to provide oversight over the Small 
Business Administration. The SBA's Office of Disaster 
Assistance offers disaster loans to small business owners, to 
non-profit organizations, and to homeowners in declared 
disaster areas.
    In fact, 80 percent of SBA's direct disaster loans are 
issued to homeowners to replace and repair property. Disaster 
survivors can apply for personal property loans of up to 
$40,000 to replace damaged or destroyed personal property; and 
homeowners may apply for loans of up to $200,000 to repair or 
restore their homes through the SBA.
    Businesses and non-profit organizations can apply for 
disaster loans of up to $2 million through the SBA after 
disasters like Irma. Economic injury disaster loans are 
available to small businesses to serve the purpose of operating 
funds until the applicant's small business recovers.
    Three major hurricanes in 2017, Irma, Harvey, and Maria, 
accounted for over 145,000 SBA disaster loans processed for 
$7.4 billion. And while approximately 80 percent of SBA 
disaster loans are issued to homeowners, many disaster 
survivors are, understandably, completely unaware that the SBA 
issues loans to survivors who are not themselves business 
owners. It is one of the reasons why we believe the SBA needs 
to do a better job of working with local officials and 
community leaders to get the word out in declared disaster 
areas that victims and survivors can access these loans.
    According to FEMA, between 40 and 60 percent of small 
businesses do not reopen after a disaster. And this, frankly, 
is not just troubling; it is unacceptable. When I--we have 
talked to owners whose businesses have been damaged or 
destroyed by disasters, and they tell me the most immediate 
need they have is for capital. It is a crucial obstacle to 
rebuilding and to reopening their businesses.
    The Florida Small Business Emergency Bridge Loan Program 
has been very, very successful. But SBA's Express Bridge Loan 
Pilot Program, I believe, is underutilized and ineffective.
    During Hurricane Irma, the Florida Bridge Loan Program 
received 1,200 applications and processed 883 loans for $35 
million. The SBA Express Bridge Loan Program was used less than 
seven times as of the past summer. That is according to the 
GAO.
    I believe that our State's model for emergency bridge loan 
funds should serve as an example to other States, and I believe 
can serve as the example to the SBA of how to improve and 
enhance its Federal program, and this is a reform that we will 
be working on.
    What this community endured during Irma was tragic. It was 
destructive. But I want to say that the perseverance and 
resiliency of the people who call the Keys home was remarkable, 
unwavering, and for me, unsurprising.
    To keep the coastal economy on an upward trajectory over 
the long term, we all now have to do our part to restore the 
resiliency of the natural ecosystems upon which our communities 
here rely. That is why I introduced the Restoring Resilient 
Reefs Act, joined obviously on that bill by my colleague, 
Senator Scott, and by our colleagues from the State of Hawaii.
    The bill would add to the NOAA coral reef program an 
explicit focus on coral restoration activities where natural 
disasters and human activities have degraded reef ecosystems. 
It also includes directed Federal funding and technical 
assistance so States and impacted communities can drive 
priorities and management of coral reef ecosystems. And, new 
avenues for the provision of emergency funds to make sure that 
we have rapid and effective responses to coral reef 
emergencies, including disease outbreaks, invasive species, 
coral bleaching, natural disasters, vessel groundings, 
hazardous spills, and coastal construction accidents.
    Since the hurricane made landfall, the county, I believe, 
has gone above and beyond working with the State and Federal 
agencies to put back the community's infrastructure. And it is 
inspiring every time I come back to see more and more of the 
recovery taking place, the rebuilding taking place, and above 
all else, the enduring spirit that has brought this treasured 
corner of Florida back.
    The coastal economy has endured, and it will continue to be 
resilient with our strong efforts to conserve our natural 
resources, keep our waters clean, and restore our coral reefs. 
A resilient Keys coastal environment will continue to be an 
international destination for those seeking world-class 
fishing, diving, boating, snorkeling, swimming, and I want to 
add, eating.
    [Laughter.]
    So anyway--and I am going to do everything I can to make 
sure of that. It is a place that is very special to me 
personally. In fact, we were just here last week for a JV 
football game, and people keep asking me when they saw the 
film, why is there an ocean next to your field? And I said, 
because it is Florida, and it is the Florida Keys.
    Anyway, we thank you all for being here today. And with 
that, I want to introduce our witnesses.
    Mr. Roman Gastesi is the county administrator. You all know 
him well. He is responsible for the county's 21 departments. He 
earned his Bachelor's degree and MBA from the University of 
Miami and has more than 30 years of work experience in the 
public and private sectors. And he just, by the way, completed 
his second term as the Florida Association of County Managers 
President.
    Ms. Stacey Mitchell is the director of marketing for 
Florida Keys Tourist Development Council. She became the 
marketing director right after the hurricane struck. Prior to 
her post as the marketing director, she was the council sales 
director and has a background in sales working in that 
department at a local Key West hotel before joining the 
council. She has lived in Key West for 35 years.
    Captain Will Benson, who ironically is the only one with a 
tie on----
    [Laughter.]
    We joked about that. He grew up in the Florida Keys. He has 
lived here his entire life, except for--did I read correctly--a 
brief stint at a school way up north?
    Mr. Benson. Yes. That's correct.
    Chairman Rubio. Go Gators, not the--who's the other one? 
That's fine. Whatever. I'm not going to get into that now, but 
you did it well, nonetheless, sir.
    Mr. Benson. I did well. I earned an academic scholarship to 
Loyola University in New Orleans in a community that is much 
like ours, so I drew on some experiences and brought them home.
    Chairman Rubio. Absolutely. Thank you. Thank you so much 
for being here.
    He is a fly fishing guide and film maker through his 
company, World Angling. And through his small business, he 
guides customers and clients about 275 days a year. This is 
your 20th season as a professional guide.
    And so, with that, I want to recognize--we will start with 
you, Mr. Benson. Thank you so much for being here, and I am 
looking forward to hearing your testimony.
    Mr. Benson. Thank you.

       STATEMENT OF WILL BENSON, CEO, WORLD ANGLING, INC.

    Mr. Benson. Senator Rubio, ladies and gentlemen, good 
morning. My name is Captain Will Benson, and I am a lifetime 
resident of the Florida Keys. I am a fishing guide, film maker, 
husband, and father of two children, who are here with me 
today.
    As a young kid, I grew up in a 13-foot aluminum skiff, 
exploring the waters of the backcountry. As an adult, I own and 
operate my charter business, World Angling, and guide clients 
over 200 days a year.
    I have been very lucky to grow up in the Florida Keys and 
consider my occupation a blessing because I do what I love and 
am passionate about every single day.
    This is my 20th season as a professional guide. In the last 
20 years, I have witnessed many changes. With only a few 
exceptions, I have watched as our fishery diminishes, the 
habitat declines, and the pressure mounts. The success that I 
have enjoyed as a professional fishing guide has been largely 
dependent upon the fact that the Florida Keys flats fishery is 
one of the best in the world.
    There is no other fishery quite like that of south Florida 
and the Florida Keys. It is uniquely situated between the Gulf 
of Mexico and Atlantic, relatively far from large populations 
of people, and is the beneficiary of its own geographical 
isolation, and therefore, rather resilient.
    The convergence of freshwater Everglades ecosystem to the 
grass flats of Florida Bay, out to America's only barrier coral 
reef, distinguish our fishery as one of the most diverse and 
unique in the world. I am here today to testify that this 
remarkable and resilient habitat, that has given our community 
and my family so much, is hurting.
    We have watched for 30 years as the grass has died in 
Florida Bay. We are currently watching the last remaining parts 
of our coral reef die from a disease that we don't understand. 
In the past two years alone, we have witnessed large-scale 
algae blooms, a devastating hurricane, and continued 
unsustainable pressure on the environment.
    As citizens, we have been asked to invest in a new, cleaner 
sewage system. As an independent charter fisherman, we have 
been regulated by individual catch quotas, subject to 
restrictive to zoning, and affected by pressure from an ever-
increasing number of uneducated new voters, jet skis, cruise 
ships, parasailers, large-capacity ecotour companies, and 
corporate charter operations designed to dominate Google 
searches and put guides like me out of business.
    We watch every spring season as out-of-state guides and 
mothership businesses descend on the Keys' waters to profit at 
the expense of independent, year-round, local guides, such as 
myself. For charter fishermen like me, who take up other work 
in the off season in hopes of keeping their passion for charter 
fishing alive during the high season, we are at breaking point.
    We need leadership to chart a new course to sustainable 
future.
    We need leadership to seriously take up environmental 
restoration of the Everglades and Florida Bay.
    We need leadership to devote more resources to 
understanding the complex factors driving the decline of our 
habitat and fishery.
    We need leadership to work with groups, like the Lower Keys 
Guides Association, to develop a licensing program to secure 
our businesses.
    We need leadership from the National Marine Sanctuary to 
enact a bold, new plan for environment restoration and not draw 
out the same old, tired game plan for hands-off conservation 
that has done little to improve our community, except for 
dividing fishermen from divers and allowing corporate 
consolidation of the fishing, diving, and ecotour businesses.
    We need leadership to embrace the expertise and knowledge 
of some of the best, most experienced fishing guides anywhere 
on the planet and partner with them for a sustainable future, 
not demonize them and label them as the problem.
    While fishermen such as me understand that we bear 
responsibility for our own impact, which--we are watching the 
health of our habitat, and in turn our fishery, slip away 
whilst we argue amongst ourselves and watch as excuses are made 
for do-nothing policies.
    But I have hope. As the pressure mounts, the solution is 
becoming more clear. We need Everglades restoration now. Not 
tomorrow, not phased in over 16 years, but now. The voters of 
Florida have already approved funding for mitigation efforts, 
but little has been done.
    We need major support for restorations that are hands-on, 
like the microfragmenting coral restoration efforts currently 
underway.
    We need bold and even experimental approaches to 
rehabilitate our fishery.
    We need an ecosystem and habitat-based approach to 
management and regulation.
    We need a plan to prepare our community and the businesses 
that support it for the coming effects of climate change.
    All of these things are possible. I know that because I 
have also witnessed firsthand that, if given the chance, nature 
can do extraordinary things. Nature's resiliency is amazing. If 
we can summon the courage to truly address these problems, I am 
confident that the Florida Keys will remain the very best place 
in the world to fish, and our passionate, unique coastal 
community will continue to thrive.
    Thank you.
    [The prepared statement of Mr. Benson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     Chairman Rubio. Thank you.
    Ms. Mitchell.

  STATEMENT OF STACEY MITCHELL, DIRECTOR OF MARKETING, MONROE 
               COUNTY TOURIST DEVELOPMENT COUNCIL

    Ms. Mitchell. Good morning. My name is Stacey Mitchell, and 
I am the marketing director of the Monroe County Tourist 
Development Council (TDC), which is the county agency that is 
the destination marketing organization for the Florida Keys and 
Key West.
    The TDC is funded by a portion of the extended sales tax, 
locally known as a bed tax, that visitors pay when they stay at 
a Keys lodging establishment. This could be in the form of a 
hotel, motel, RV resort, guest house, or short-term vacation 
rental. The bed tax collected funds advertising, public 
relations, sales, and other tourism marketing initiatives for 
the Florida Keys.
    Another portion of this revenue pays for infrastructure 
enhancement to the Keys, such as beach maintenance, coral reef 
restoration, artificial reef construction, cultural projects, 
special events, and other programs throughout the county. These 
benefit our residents, as well as our visitors.
    As you had mentioned earlier, I have been the marketing 
director since shortly after Hurricane Irma was an unwelcomed 
visitor to the Keys in September of 2017. I was the TDC sales 
director for many years prior to that and have been a member of 
the Keys tourism community for many years.
    During my 35 years of living in Key West, I have raised a 
daughter, who is now finishing her collegiate life at UCF and 
will be returning to Monroe County in January with the hopes of 
starting her career as an elementary school teacher. My mantra 
is, and always will be, that I am a mother first, a resident 
second, and a marketer third.
    As the tourism director for Monroe County, my 
responsibilities include organizing and managing our in-house 
staff of 13, as well as managing contracted advertising, public 
relations, web, foreign sales agencies of record.
    I serve as the primary liaison to the TDC board, including 
the five district advisory committees and three affinity 
umbrellas. I also manage a number of financial budgets, and the 
current fiscal year, beginning October 1, totals $56 million.
    There is no doubt that tourism is the top industry in the 
Florida Keys. The TDC recently conducted a research report on 
the economic impacts of tourism to our local economy, and the 
results include:
    Tourism is responsible for 44 percent of all of Monroe 
County jobs.
    Last calendar year, the total economic impact generated by 
visitors to the Florida Keys represented approximately 54 
percent of Monroe County's private sector gross domestic 
product.
    Approximately 40 cents of each visitor dollar went towards 
paying Monroe County workers a total of $940 million in wages 
and salaries.
    Over $1.8 billion was retained in the county economy, 
providing an array of businesses with revenue, supporting jobs 
for county citizens, and producing revenue for State and local 
governments.
    Keys tourism contributed nearly $255 million in tax revenue 
to State and local coffers. Another $43 million was raised from 
taxes, such as the bed tax, rental car fees, and other licenses 
and fees.
    In 2018, sales taxes paid by visitors to Monroe County made 
up nearly 57 percent of State and local tax receipts that can 
be attributed to tourism.
    Hurricanes obviously have a profound impact on tourism flow 
to the destination, and a direct hit, such as Irma, is not even 
necessary to feel those effects.
    As an example, 1992's Hurricane Andrew, which devastated 
southern Miami-Dade County. I was the acting manager on duty 
for the Reach Resort. That is a property located in Key West. 
Misperceptions caused by erroneous news reports--and this is 
before social media--made it seem that the Keys were also 
severely impacted by Andrew, which was not the case. It took 
more than three months to correct that misperception in 
domestic and international travel marketplaces.
    As far as Irma is concerned, the cat 4 storm had a profound 
impact on tourism for more than a year, and in some instances, 
even continues. The Keys did not formally welcome back visitors 
until October 1st, 2017. But even then, most oceanside hotels 
in Islamorada, Marathon, and the Lower Keys required anywhere 
from 6 months to a year to complete repairs and reopen. Two 
properties in the Lower Keys--the Little Palm Island resort and 
the KOA RV resort--still have not reopened, though we 
anticipate both to be back online by next year.
    In October of 2017, only 50 percent of Keys lodging 
inventory was available to accommodate visitors, residents, or 
recovery workers. A year later, that number rose to almost 95 
percent. Currently, 97 percent of the Keys accommodations are 
back online, including some new build properties, such as the 
Isla Bella in Marathon, which opened in April of this year.
    Shortly after the storm, those lodging units that could 
operate were able to minimize losses by providing 
accommodations to recovery personnel, but it was tourism 
service providers, such as fishing and dive charters, as well 
as other attractions, that suffered even more because recovery 
workers are not traditional visitors and do not engage in 
visitor activities.
    Many of my friends who work as backcountry guides had to 
take work in other fields to make ends meet before they could 
convince their customers that it was okay to not only travel to 
the Keys, but also that the infrastructure was intact for them 
to have a satisfying experience. Other operators lost their 
boats, their traps, accessibility to a marina, or other types 
of equipment essential to their line of work.
    Beyond physical recovery from hurricane impacts, image 
recovery can often be challenging. Social and mainstream media 
coverage of storms can often be extremely narrow in focus. In 
the case of Irma and the Florida Keys, the broad-brush 
reporting that the entire Keys had been devastated took almost 
two years to correct in the minds of many travelers. The work 
of the TDC, using emergency marketing reserves, as well as 
planned programs, while interfacing with the private industry, 
helped to eventually correct these misperceptions.
    We were also caught in a balancing act. Those businesses 
who suffered little damage needed the injection of visitor 
revenue in order to maintain payroll, but then many of those 
employed in the industry did not have a dwelling to return to. 
It is very difficult to work in the hospitality industry by 
day, ensuring that our guests have a memorable vacation, while 
living in a hotel or temporary housing and arguing with 
adjusters, inspectors, and insurance agents.
    I recently wrote to my board that we need two quiet 
hurricane seasons to gain the confidence of potential visitors 
to plan a vacation to our area during the timeframe of late 
August to mid-October. Locally, we call this a hurricane 
hangover.
    Sadly, we saw the quick reaction from confirmed and 
potential visitors over this Labor Day weekend when Dorian was 
making her presence known in the Atlantic Basin. The month of 
September has been significantly slower than the last average 
September--and we go back to 2016--and the threat of a storm 
reinforced the consumers' hesitation to travel to a tropical 
destination during the height of hurricane season.
    Several locally based business owners have told me they 
will close for the month of September next year as it wasn't 
worth it for them to maintain payroll and other operating 
expenses for the significant drop in business they have 
experienced during the month of September.
    Just the idea of a storm brewing out there has significant 
effects on the visitor psyche. And with a direct hit in recent 
memory, our revenue collections continue to feel those impacts.
    There are two takeaways from Irma that may be of help to 
tourism destinations down the road. The first is to ensure that 
Federal officials have facts correct from local officials prior 
to speaking to mainstream media and posting on social media.
    Several days after Irma passed through the Keys, a high-
level FEMA official reported that 90 percent of the residences 
in the Keys had either been destroyed or seriously damaged. 
That figure differed vastly from the actual preliminary number 
that Keys officials had determined.
    Two days after Irma passed through, a Department of Defense 
press release reported that U.S. Navy ships were headed to Key 
West to evacuate 10,000 people because there was no drinking 
water. Key West officials knew nothing of that plan, and it was 
never executed.
    Media reported both stories cited above and significantly 
exacerbated destination perception challenges for the entire 
Florida Keys.
    It would be helpful to note if FEMA could consider 
communicating the viability of the destination as soon as 
infrastructure is restored and is appropriate. There are many 
on-air opportunities to relay messaging, and hearing it from a 
FEMA official, or as a partnership between FEMA and local 
officials, has more validity and portrays confidence in the 
stability of the region.
    It should be noted that the Monroe County Tourist 
Development Council takes hurricane safety very seriously. 
Since 1998, we pioneered a proactive working relationship with 
Monroe County Emergency Management to help communicate 
hurricane-related protective actions to visitors within the 
destination, as well as those planning to travel to the Keys.
    The programs that involved were groundbreaking, and in 2004 
and 2005, we received a public education awareness award from 
the National Hurricane and Florida Governor's conference--
sorry--the Florida Governor's Hurricane conferences, 
respectively.
    The initiative demonstrates that the Keys tourism industry 
wants to ensure that visitors understand that their safety is 
paramount, and that they should be comfortable traveling to the 
island chain during the Atlantic Basin hurricane season.
    Thank you very much.
    [The prepared statement of Ms. Mitchell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Rubio. Thank you.
    Mr. Gustesi.

   STATEMENT OF ROMAN GASTESI, COUNTY ADMINISTRATOR, MONROE 
                        COUNTY, FLORIDA

    Mr. Gastesi. Senator Rubio, I am Roman Gastesi, the county 
administrator for Monroe County, probably the best job in the 
State of Florida.
    Thank you for this opportunity. Apparently, we share the 
same speech writer, so I am going to move way into my speech 
here because you covered a lot of the things that I was going 
to cover, which is great.
    We are cognizant of the serious challenges posed on us by 
sea level rise, so I have put together a little presentation, 
if you will. I think you have a copy of it, and there are a 
bunch of them back there. If anybody doesn't have them, just 
share with your neighbors.
    The first thing is, it shows the Key West tide gauge that 
we have down there, and it has been down there for over 100 
years. It was put there by the USGS, and you can see the data. 
That is real empirical data on the left there. It looks like 
the stock market going up. It has a trend of going up, and it 
has gone up about 9 inches in the last 100 years.
    You flip the page, Senator, and then you take that same 
squiggly line--you see it down at the bottom. And then there 
has been many projections done by various entities. We have 
taken the average of those projections, and we estimate that in 
the next 50 years, the sea level rise will be between 9 inches 
and 24 inches. This is important because, as we plan moving 
forward, and as we want to get our economy going, and we want 
to improve our infrastructure, we have to plan accordingly.
    So, you flip the page, sir, and you will see there that the 
Stock Island fire station that we built a few years ago, we 
went ahead and raised it 2 feet. To raise it 2 feet cost us 
between $75,000 and $100,000. This is a $4 million station, so 
it makes sense to go ahead and raise it.
    Flip the page again and you will see that there is 
Bernstein Park on Stock Island. We also raised that. We just 
built that last year. We went ahead and raised it in 
preparation for sea level rise and adaptation policies.
    Also, the private sector is taking note. And there is a 
picture there--I apologize, it is a little crude. That is a 
house that is being raised in Key West. This is starting to 
happen more and more in the Keys, folks responding to the sea 
level rise and things that are going on and going ahead and 
raising their houses to save on insurance premiums.
    This past week, of course, we have had the King Tides. Flip 
the pages and there are some pictures just this week of all 
over the Keys. This is up and down the Keys, the Lower Keys and 
Upper Keys, and we are starting to see the effects of these 
King Tides. All of south Florida is. I am sure you have heard 
about that.
    So, what are we doing about it? Well, the Corps of 
Engineers--I flipped the page again here. I am on the 
feasibility study page of the Florida Keys. They are doing a 3-
year study of the U.S. 1 corridor. They are spending $3 
million, and they are using public involvement and stakeholder 
process, and hopefully they will come up with a list of 
projects and construction recommendations that will help 
minimize the effects of sea level rise throughout the Keys. 
That is the U.S. 1 corridor.
    Well, there is another 300 or so roads, so you flip the 
page and we talk about Monroe County roads vulnerability 
analysis and capital plan, which is basically the same thing 
for the county and the municipalities. So, we will know in a 
few years what we are up for--what we are up against and how 
much it is going to cost, and we just simply cannot bear it 
alone.
    So, we have also included something called the Green Keys, 
which is the next page. We are the first county in the 67 
counties of the State of Florida that included vulnerability 
analysis, sustainability, in our comprehensive plan. So, we are 
very proud of that and we are moving forward, starting to get 
ahead of it.
    The last page is more of an invitation for you and your 
staff. We do have a four-county compact. We have been doing 
this for about 11 years now with the three counties to our 
north, and we rotate the conference every year, this summit. 
This year it is going to be down in Key West, and we invite you 
and everybody that is listening to attend. It is a very good 
conference.
    Let me get back to my comments.
    A couple other things that you are very aware of that have 
not been touched upon and are critical to the Keys is the 
National Flood Insurance Program. We very much appreciate your 
leadership and the authorization, and your recognition that the 
NFIP flood insurance premiums must remain affordable with a 
predictable and responsible glide path of annual increases.
    A lot has been covered here already, my comments, so in 
closing, I am just going to say thank you again for hosting 
this hearing. You and your staff helped us fight all these 
improvements and all, being a strong advocate for Florida. We 
appreciate it and look forward to answering any questions you 
might have.
    [The prepared statement of Roman Gastesi follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Rubio. Thank you. Let me--the reason I was asking 
a question here was because on the--I just want to talk about 
the graph, the Army Corps----
    Mr. Gastesi. Right.
    Chairman Rubio [continuing]. Feasibility study. Layered 
over that, or on top of it, is a broader study of the entire 
south Atlantic region that extends all the way through 
Mississippi and up the east coast.
    The exact same issue, and the goal--and it was our project 
that we got done----
    Mr. Gastesi. Sure.
    Chairman Rubio [continuing]. And we want to get the numbers 
back by hopefully 2022, correct?
    And the hope of that is exactly what you have outlined 
here. You focused on the study that specifically focused on the 
Florida Keys. We are actually trying to map that through the 
entire region because on the sustainability and mitigation and 
adaptation side, we want to be driven by data. Right?
    Mr. Gastesi. Exactly.
    Chairman Rubio. So we want to know where are the best 
places to spend the money, what should get priority, who should 
go first in terms of the order of impact.
    And right now, while there are some of these multi-county 
compacts, this honestly is an issue that extends all the way up 
the coastline. And so there are going to be infrastructure 
dollars spent in the years to come to address this, including 
at Federal facilities, some of which are critical to National 
security or other Federal priorities. And it has to be driven 
by data, not just who has the most senior member of Congress on 
the Appropriations Committee that can drive money to this, 
that, or to the other.
    And, so, our goal was to establish sort of definitive data 
that would help us to make that decision, and so I am curious, 
as we engage with the Corps, how--what they are doing 
specifically for Monroe County, whether that is feeding into 
the broader study, as well, or whether we are duplicating data.
    Mr. Gastesi. No, we are working with them directly. The 
first thing was to get good elevation data and get something 
called LIDAR and bring it down--the risk now is only 1 or 2 
inches as far as what the risk--it used to be 6 or 7 inches. 
That can make a big difference. So, we are working with them 
directly. They come in with--they even use our office space. We 
welcome them. Believe me. We are working with them.
    Chairman Rubio. My question is more for them. I want to 
make sure that whatever they have gained from your study that 
they are also applying that to the other one.
    Mr. Gastesi. Yes. It will share----
    Chairman Rubio. So that we do not have two different sets 
of data.
    Mr. Gastesi. Correct.
    Chairman Rubio. But, you know, we want everyone to know 
that this is something that we have looked at beyond just 
Monroe County, but throughout--there is going to be a Federal 
competition for these dollars.
    Mr. Gastesi. Sure.
    Chairman Rubio. We want to prioritize it to the best places 
possible, so that is a--it is good that that is moving forward. 
Obviously, we would love to have the results today, but 
certainly, you know, these things take time. How many years are 
you guys into yours?
    Mr. Gastesi. We just started ours, too.
    Chairman Rubio. So you have two more, so you are going to 
end up around the same time.
    Mr. Gastesi. That is the whole--that is the idea, to end up 
at the same time, yes, sir.
    Chairman Rubio. Okay. Perfect. Let me----
    I want to start with Captain Benson on the--you know, you 
discussed the water issues, and we often--when we discuss the 
issues you have outlined, and as I pointed out in my opening 
statement, these are not simply environmental or ecological 
issues. They have a direct application to our economies, an 
extraordinary amount of economic activity that depends upon 
access to the natural environment.
    And I would--I wanted to ask you what are the priorities, 
but I want to break out into three areas. The one we just 
discussed was just the sustainability efforts, because 
ultimately the roads are--facilities are not safe or you cannot 
even get them insured, so you cannot build them or operate them 
because of the threat of sea level rise or whatever else is 
impacting it. And so we have talked about that.
    On the ecosystem side, obviously we have unique threats 
with regards to coral reefs, which is why I mentioned that. And 
we continue to drive what we hope will be both research--
because some of it requires innovative solution, whether it is 
the implantation of coral reefs that are resistant to some of 
these diseases that we know about, what we can do about it.
    But this is a critical situation that we are trying to 
drive research dollars, as well as operational dollars that 
they can move on quickly. And as I said, I mentioned earlier, 
folks are here from Mote Marine. We were out there--was it 6 
months ago--and saw some of the things they have been working 
on, along with others that are involved in this effort.
    And the third you mentioned--I am glad you did because a 
lot of times people do not connect it--is the Everglades 
restoration. A lot of people, Everglades is something that is 
up north. It has to do with the--and it has all sorts of 
impacts on the canals to the east and west coast and so forth.
    And I--the challenge with that has been, you know, 
predating my time, is that there has not been consistency in 
the Federal commitment to it in terms of funding, and so 
keeping it on track. We really made that a priority over the 
last few years.
    But I thought this year the most important thing that 
happened was getting the President's budget to reflect the full 
funding for this given year, and that was a big win because, in 
the absence, that almost sets the--it sets the ceiling in some 
cases, but most certainly it sets the floor on the funding.
    So the President comes in at 80 percent of what we need for 
this given year. We are not going to get 100. We may get to 90, 
we may get to 85. And so getting them to put in their budget--
they went back and changed the President's budget to reflect 
the full amount. It was a big deal.
    Now we have to do it--we have to get it done because right 
now we are not operating on an Appropriations bill. We are 
operating on a continuing resolution, which is just continuing 
last year's funding levels. That is why these Appropriations 
bills are so important.
    It is not just a bunch of policy wonks sitting around, 
upset that we did not pass a piece of paper. You cannot program 
continuing money, the continuing resolutions. You need to have 
budget certainty from year in and year out. And that is why 
getting that Appropriations bill passed is such a big deal, 
because we do not just have to do it this year. We have to do 
it next year, and the year after that, and the year after that.
    I share your impatience about getting these things done. 
And every now and then, we get bits of good news. The Governor 
announced yesterday that some of the lands we need just further 
north are going to become available earlier than they thought 
it would on a deal that they cut with one of the agriculture 
companies.
    But some of these projects cannot start until we finish the 
one before it because they are linked. Others, frankly, the 
engineering work, the--but it has to start happening. And it is 
one of those things that you will see improvement as these 
projects come online.
    But our biggest frustration has been the consistency of the 
funding: the stop, the start, the stop, the start. The 
inability to have it year in, year out has been a big, big 
problem.
    But now it is impacting the whole State. I mean, it is 
dealing with--every part of the State you can imagine has been 
impacted by it. And obviously the flow of more water down 
towards Florida Bay is a critical part of it.
    Those three items: the water management, the ecosystem--
which by the way is a statewide issue. I mean, we have a 
seagrass disaster in Biscayne Bay that we are trying to get a 
handle of and trying to push some money towards that, as well. 
The fisheries, getting good data on fishery and management, and 
so forth, because that is also deeply disruptive.
    Sustainability, the ecosystem, the water management are 
the--what else are we missing? Are those the key areas that you 
think are important for the future of the industry?
    Mr. Benson. Well, I am sure that we are missing something 
because you cannot just outline the most complicated 
socioeconomic environmental problem on the planet in three 
bullet points, and we know that.
    It is--everything that you just spoke to are absolutely key 
priorities to it, but I would add just--and I am no expert at 
this, but I believe that in order to chart a pathway forward to 
real restoration, it involves all members of the community 
coming together. And that includes, you know, fishermen down 
here, but also, you know, business leaders who are, you know, 
working in the State of Florida in the agricultural communities 
to, you know, work with us instead of against us towards 
getting some of these solutions.
    We all share in this. We all depend on the economy here in 
south Florida to be vibrant and for, you know, the tourism and 
the fisheries to be, you know, sustainable. And so, as we look 
to the future, we have to stop, you know, being partisan or 
being on opposite sides and start thinking creatively on how we 
can work together.
    And I would just add to one of the things as we consider 
moving forward, you know, we really, I think, need to get bold 
and creative and experimental in certain ways to maybe add to 
that dataset that you spoke to that can guide some of the 
decision making that we have.
    I would like to see, you know, councils come together where 
we can bring, you know, the professional expertise of 
fishermen, the professional expertise of scientists, business 
leaders, you know, community representatives, together to think 
boldly and creatively on how we can get hands-on with the 
habitat-based ecosystem approach and potentially solve some of 
these problems.
    I think the coral microfragmenting that we are seeing right 
now is a beautiful example of that. That is a really amazing, 
cutting-edge thing that, you know, because of some of the 
research that they were doing, it has now provided an 
opportunity to be optimistic and to be hopeful. And we can now 
start charting a pathway with directing dollars towards those 
efforts.
    But there are others out there--sponges, you know, sea 
fans, the backcountry coral reef that died so long ago that 
people forget about it.
    You know, when I was a kid, off of Marvin Key and some of 
these backcountry areas, there was a reef there, as well, and 
nobody talks about it anymore because we are concentrated on, 
you know, the last remaining reef that is out there on the 
oceanside.
    But this passed away 20, 30 years ago. It was amazing 
habitat that held a lot of fish and was an incredibly important 
part of, you know, this entire ecosystem. And we have forgotten 
about that.
    I would like to get historical knowledge from captains, to 
sit down and paint a vivid picture of what it looked like so 
that we don't forget, and we understand how the ecosystem 
works, and we can bring these folks together and start taking 
bold, experimental approaches to unlock some of the mysteries. 
Just like coral microfragmenting had that can, you know, 
provide opportunities for us to, you know, take on this 
challenge in an aggressive way.
    Chairman Rubio. And that is a good point because, just 
going back to the Army Corps, all they are looking at is 
engineering. Right? Where is the sea level going to rise the 
highest in comparison to where we have infrastructure, homes, 
and so forth.
    The issues that you point to are on the scientific 
innovation side. And right now, we are sort of in a disaster 
response. Something bad happens; we respond to it by pushing 
dollars toward research.
    What I think you would want to see is operationalize it so 
that the solution to one problem creates an opening to solve 
a--or prevent a future problem. Sort of systemize that in a way 
so that you are not just responding to problems, but you are 
actually beginning to foresee them before they happen.
    And maybe even, you know, it is just like--maybe it is a 
terrible analogy, but sometimes in pharmaceuticals, they say, 
oh, this medicine does not actually cure that, but by the way, 
we found out it cures something else. And so the ability to 
apply it that way. And I do think that is going to take a lot 
more creative thinking.
    Mr. Benson. That is correct. And I would point to, just so 
you know, some little piece of--just currently, what is 
happening right here in south Florida, is we have made progress 
with, you know, restricting some of the longlining for sharks, 
for instance, right? And now the sharks have come back, and it 
is a robust population of sharks. So we are experiencing a new 
form of pressure, which is predation on some of the fish that 
we were fishing for, and now we do not know what to do about 
that.
    So we need experimental kind of thinking and approaches 
with regards to, you know, shark repellant technology and what 
can--how can we adapt, as fishermen, and, you know, buy into 
the conservation and buy into the advancements that we are 
making, but also prepare, you know, to--for unforeseen 
challenges that we are experiencing. And this is happening 
right now, today.
    Chairman Rubio. And just for Ms. Mitchell's purposes, this 
thing about the sharks are back, we are not going to put that 
on the brochures.
    [Laughter.]
    Ms. Mitchell. Thank you.
    Chairman Rubio. Because ecologically, that is good news. 
People are going to misunderstand.
    Let me ask about that first. Ms. Mitchell, you raised a 
really good point, and that is the information flow that goes 
out. We are going through that right now, by the way, with the 
Bahamas. Right?
    So, one of my biggest things is--let me ask you. What is 
the worst thing that could happen to the Bahamas right now? And 
I said the worst thing that could happen to the Bahamas right 
now is that people cancel their weddings and their conventions 
and their vacations for November on an island that was not 
impacted.
    So, really--and it is a balancing act. Right? And this is 
not to be critical, but the fact of the matter is that we know 
that what draws ratings and news coverage is bad news. I mean, 
things that are--and we do not want to belittle it either, 
because part of it is necessary.
    I mean, one of the challenges we are having in northwest 
Florida is there is no national news coverage. They are still 
recovering from a storm that hit just over a year ago. The 
attention has moved to somewhere else.
    So there is a balance between giving people accurate 
information about how bad things are--because it helps you get 
the money and the disaster funds and the attention--and 
overstating it to the point where it has these sort of 
unintended consequences.
    I do not think anybody deliberately went out and said 
things are terrible down there, but we have gotten into the 
cycle that we have. It is a really good suggestion. It was not 
even part of what our thinking was about. It is sort of 
systemizing how attention gets out there post-storm. Especially 
in areas that are critical, for which visitors and tourism are 
a key part of the industry. You can foresee where people that 
have something scheduled six months from now may decide to 
cancel that very day if they are hearing that 90 percent of the 
facilities have been completely wiped out or destroyed.
    We cannot control what is reported. We cannot control what 
people put on their social media in terms of private citizens 
and so forth. But I do think one of the things we will take 
from this hearing is we have to do a better job of ensuring 
that Federal agencies are not, in an unintended way, putting 
out alarmist information that may not be accurate because that 
is what--once a Federal agency or official does that, and I 
include elected officials in that--it serves as a citation for 
others to repeat that point. Right? And it just becomes--
everybody else will just start picking up. According to fill-
in-the-blank, it is how terrible this is happening.
    I wanted to ask just if you could give me an assessment of 
where we are today--and I know that different parts of the 
county were impacted differently by the storm--but where we 
are--and you talked a little bit about the occupation, the 
vacancies and so forth, the visitor numbers.
    But where are we today in comparison to before the storm? 
And as you give us those numbers, how much of that is due to 
the fact that some of the things or facilities that might have 
drawn people here were rebuilding and they were not up and 
running yet, and how much of that is a lingering impact from 
travel agents or just individuals sort of still having that in 
their mind?
    Ms. Mitchell. So, before Irma hit, the destination had not 
experienced a direct impact from a storm for nearly 12 years, 
and we enjoyed an uninterrupted decade of expansion of year-
round tourism. And as tourism expanded, so did tourism-related 
businesses. Many new businesses opened and prospered. The 
economy was humming along very nicely. We found that summer 
visitation was almost as robust as the traditional winter 
season.
    But when Irma made landfall, many business owners quasi new 
to the area had not experienced a storm. They did not 
understand what it meant, and they were not experienced to 
handle the revenue loss for an extended period of time.
    Since Irma hit, we have seen subtle changes within the 
industry. So, demand is softening during August and September, 
as you stated.
    Weddings and conventions, they are not confident in booking 
this area during the height of hurricane season.
    For business owners, they are having a hard time projecting 
revenue; therefore, they are having a hard time staffing 
because the bookings are now coming in so short term. People 
are waiting to see what is brewing out in the Atlantic Basin, 
what might be coming down the horizon. They are going to hold 
off and wait until they know, okay, we can go this weekend, 
everything is going to be fine.
    What is interesting between what happened with Irma and 
what happened, or did not happen, with Dorian is for the 
lodging sector, those who were able to house first responders 
and emergency workers after Irma, they fared okay because the 
folks staying overnight were paying, you know, per diem rates. 
They were here on contracts, et cetera.
    What happened after Dorian, a non-direct hit, but the 
financial impact was there was zero business. None. This past 
Labor Day weekend, we are talking 60 percent down year over 
year. And 2018 was a rebuilding year. So hurricanes have a 
devastating effect. And that is just lodging.
    Folks like Captain Benson, retail shop owners, restaurants, 
as I mentioned in my opening comments, they are thinking of 
closing next year for the month of September because, A, they 
cannot predict when the business and how much is going to come 
in because it is so short term.
    The consumer confidence in booking a destination during the 
height of hurricane season is not there yet. We need at least 
two years of all quiet in order to regain that confidence. They 
are saying they just--they cannot sustain staying open.
    Chairman Rubio. Let me break that up a little bit on the 
calendar for a second because we are never going to have one 
year of all quiet, if all quiet means nothing is brewing out in 
the Atlantic, that there is not two of the 84,000 lines on the 
models show could go in your direction. You know, it is--right? 
So, let me break up for a second.
    So the traditional sort of snowbird, for lack of a better 
term, industry that starts in mid- to late November through 
March, April. Right? That is--talk to me about that because 
that industry would not be impacted. That sort of visitor would 
not be impacted by hurricane season.
    So what has been the biggest impact? Are those numbers 
down? And what has been the biggest impact on that group, some 
of which are long term? You know, they stay 6 months, 5 months. 
Six months and a day if they are smart and they come from a 
State with income tax.
    Ms. Mitchell. The snowbirds--so the November through April 
crowd----
    Chairman Rubio. Okay.
    Ms. Mitchell [continuing]. I guess we could say----
    Chairman Rubio. Right.
    Ms. Mitchell [continuing]. They--in the winter of 2018, 
what we saw was the winter resident had to gravitate to either 
Key West or Key Largo because facilities in the middle--Lower, 
Middle, and Upper Keys--there were not enough to accommodate 
them. They wanted to come down, but there just wasn't the 
space.
    Chairman Rubio. There was nowhere to go. Right.
    Ms. Mitchell. So we saw the Key West district and the Key 
Largo district pick up as much as they could. Then as lodging 
reopened, and most of it reopened after that winter season 
push, we saw it then balance out.
    Where we take the biggest hit is in the southeast and 
Florida drive-down market during hurricane season. That is the 
crux of our business in the summer. Those are the guys who like 
to come here and go diving, and they like to go fishing, and 
they are Floridians and it has been a generational trip every 
summer. We take the family down to the Keys.
    If Florida is in the cone, we are not going to see their 
business.
    Chairman Rubio. Right.
    Ms. Mitchell. If the Florida Keys is in the cone, we are 
not going to see the business. So it is a State of Florida--as 
we saw with Dorian, from Jacksonville to Key West, everybody 
lost. Everybody lost revenue.
    Chairman Rubio. Yes.
    Ms. Mitchell. Because----
    Chairman Rubio. Well, you will get hit twice because you 
get hit--people cannot leave their homes if they are in the 
cone.
    Ms. Mitchell. Right.
    Chairman Rubio. And they are not going to drive into the 
place that is in the cone. So either one way or the other. You 
might get hit both ways.
    So really, what we are--on the November through April, for 
lack of a better term, that was a facilities-based problem 
that----
    Ms. Mitchell. Correct.
    Chairman Rubio [continuing]. Theoretically--and hopefully 
we are seeing signs of it, will see now coming up here in a 
month or so--once more places come online, whether that sort of 
recovers.
    So really, what we are focused on is that drive-down, you 
know, late April, you know, mini season era type stuff in 
August through November--late October, November crowd. That is 
the place that is dealing with so much of this uncertainty and, 
you know, if you are going to book a trip and anything comes on 
the news, you are going to cancel it----
    Ms. Mitchell. Right.
    Chairman Rubio [continuing]. Kind of problem. And why is 
that different from--are people just quicker to pull the 
trigger on the cancellation given what happened a couple years 
ago? Or is it they are just not booking it at all?
    Mr. Benson. I can answer a little bit because I take--pick 
up the phone when somebody wants to come and go fishing.
    Chairman Rubio. Right.
    Mr. Benson. If I say, well, I have these days open in 
September, and they say, that is great, can we pencil them in 
and then I will make a decision, you know, a week beforehand, 
and we will have a conversation about a hurricane, you know.
    And because I am in an awkward spot, I have to say okay. 
You know, I want to fill those days and this is a good client, 
but I do respect, you know, where he is coming from. And I 
certainly don't want him coming down and then we all have to 
evacuate together. It is a very problematic situation.
    So we--you know, it is kind of--you are just forced into a 
situation where you have to be more flexible and you have to be 
basically prepared for cancellations. And we--the same thing 
with Dorian this year. I mean, I got canceled, you know, during 
that time period because of the cone of uncertainty.
    Chairman Rubio. Right. So, again--I was going to turn to 
you--on the November through April subset, have you seen or do 
you expect those numbers are going to come back?
    Mr. Benson. There is--so the fishing community, the people, 
the anglers, out there that come down here to book trips, I 
mean, you know, there is a lot of awareness, a lot of narrative 
going out. Well, the Keys got hit really hard. You know, there 
is not the beautiful beaches and places to stay, so maybe I do 
not want to bring my wife down on our annual fishing trip since 
it is busted up by a hurricane, and I am used to staying in 
Marathon.
    So there is some tentative stuff there, but then there are 
also just real questions of there are broken pieces of 
mangroves all over the place. Marine debris that is on the 
flats. Where did the fish go? Because for a period of time, 
there just--the fish just were not there. I mean, you don't get 
hit with a category 4 hurricane and the fishing just--it does 
not immediately respond. It takes months.
    And then there are questions, well, did that displace, you 
know, all of the tarpon migration? Is that even going to happen 
this year? So there is just a lot of, you know----
    Chairman Rubio. Uncertainty.
    Mr. Benson [continuing]. Real uncertainty that goes into 
their decision making. And when they choose the Florida Keys 
over another destination like Mexico or Belize or the Bahamas, 
you know, that uncertainty and just concern about coming down 
to a fishery and are there going to be fish, is it fishable? 
You know, is my favorite fishing spot that I like to go to----
    Chairman Rubio. Still there.
    Mr. Benson [continuing]. Even there anymore?
    Chairman Rubio. Right.
    Mr. Benson. You know, a lot of the stuff that--you probably 
dove for spiny lobster in the backcountry here. It is covered 
with sand, those holes. Literally, the holes with the lobsters, 
where you go to catch them, are just busted up and the habitat 
has changed. So just a lot of, you know, uncertainty. And 
that----
    Chairman Rubio. That is year round. I mean, that is 
applying to every--because they just----
    Mr. Benson. That is year round.
    Chairman Rubio [continuing]. Don't know what it looks like 
out there, and they don't look--not going to stay in here.
    Mr. Benson. Yeah, right.
    Chairman Rubio. That is lingering. And then you have the 
seasonable issue, which is, I want to pencil it in, but, you 
know, what if there is--and you do not even need--I mean, even 
if you are not in the cone, if you--you know, they are afraid, 
you know, it is going to be rough out there. We won't even be 
able to go out. Even if it is far away, the seas are going to 
be choppy. I'm not going out into that.
    So there are all kinds of things, you know.
    Mr. Benson. It is a hedged deal, Senator. I want to book 
with you, but only if you are willing to pencil me in, and then 
we can confirm five days ahead. Otherwise----
    Chairman Rubio. They want to book only if you can guarantee 
that the seas are going to be calm, that the fish are going to 
bite, and that they get to stay in a nice place.
    [Laughter.]
    Mr. Benson. Yeah. That is true.
    Chairman Rubio. Yes. Okay. I know. All right.
    I want--I guess really the other question I had is, you 
know, how does this industry look like in 10 years? I mean, 
where does it go over the next 5 to 10 years, assuming some of 
these trend lines remain in place? It will be a smaller--I 
mean, I know what it has meant in other places.
    Mr. Benson. Speaking to fishing?
    Chairman Rubio. Yes.
    Mr. Benson. The fishing industry?
    Chairman Rubio. Yes.
    Mr. Benson. I think what we experienced, and I am 
personally living through it in the last week, the sanctuaries 
come out with this----
    Chairman Rubio. Yes.
    Mr. Benson [continuing]. DEIS. There has been significant 
fallout from that. I have been kind of at the center of a lot 
of this fear and misinformation. And I think the same thing 
is--people are really speaking from a place of uncertainty 
right now. You know, we got busted up by the storm. It is hard 
to put your life back together after that, even with, you know, 
good programs like the SBA and other things that my family 
capitalized on.
    It is hard to put that back together. And, so, people are 
really fearful of what it is going to look like, and we are all 
witnessing that trend line. So I do not know what it looks 
like.
    I know that this ecosystem is very resilient. When we do 
things that are proactive and we can make the right, you know, 
changes, it responds quickly. And we know that from--science 
can tell us that ecosystems in general, you know, have the 
ability to quickly respond.
    I think we just need to get more creative and more hands-on 
with that. And we need--you know, I think we have now got the 
industry--it is a big enough economic force at this point to 
make the case for more assistance, you know, with some of those 
things. And I think we are seeing that right now with 
Everglades restoration.
    I support--I mean, you know, I follow this stuff closely, 
so I know what the President has done and what our Governor 
here in the State of Florida has done. I mean, it is quite--you 
know, we are very, very thankful for that.
    Chairman Rubio. The problem is it has to happen every year 
for the next----
    Mr. Benson. It has to happen every year, and we need to 
talk about that.
    And I think fishermen need to come together. What I am 
feeling right now is that my group--you know, my community of 
fishermen are very frustrated, and I am kind of at the center 
of it.
    We are not--we need more organization, and we need to, you 
know, speak and work with our county officials and work, you 
know, with scientists to address that problem. So we have to 
bear some of our own responsibility and control of our own 
industry and how--what is our plan for the future. You know, 
what is it going to look like? And be realistic and feed data 
into it, you know, and get on the proactive side of how do we--
--
    Chairman Rubio. Well, you mentioned the sanctuary. That is 
not the purpose of the hearing today, but you know, we have the 
public comment period going on. That is still a ways down the 
road, but it has unleashed tremendous panic and a lot of 
outrage directly--you know, people really freaking out about 
what it is going to mean if it were to go down that way. And it 
is something that, you know, we probably need to have a----
    Mr. Benson. And this goes back to the same social media 
stuff that----
    Chairman Rubio. Right.
    Mr. Benson [continuing]. Stacey is talking about. When 
you--if you do not have a good messaging campaign and you 
don't--you know, and the wrong message gets out there, it--the 
amount of impact is phenomenal.
    Chairman Rubio. And it is a legitimate thing to be 
concerned----
    Mr. Benson. Totally.
    Chairman Rubio [continuing]. And keep an eye on and get 
involved in. There are a lot of equities to weigh in it. But I 
agree. I mean, it kind of----
    The last thing I wanted to ask about was on the SBA 
disaster loan process, given your experience and having 
utilized it, and obviously looking at it through the unique 
lens of the Florida Keys, what does it do--what does the 
program do well? And just, from your experience, what could it 
have done or can do better? How do we make it--what is good 
about it and----
    Mr. Benson. We got some money in our bank account quickly.
    Chairman Rubio. Yes. That is the good part.
    Mr. Benson. It did that really well. And I feel that the 
paperwork was not overwhelming.
    Chairman Rubio. How did you find out? How did you get 
access to it?
    Mr. Benson. You know, I don't really remember. I think it 
was, you know, we came down and there was--families were kind 
of still up on the mainland, but a bunch of fishing guides and 
assisted with, you know, Costa Sunglasses.
    Like we brought a team down and we were cleaning stuff up 
and cleaning out neighbors and just kind of getting our houses, 
you know, opened back up with trees that had fallen on them and 
stuff like that. And I think the conversation just got going, 
and everybody within that group kind of came up with a plan. 
Hey, we are all going to go get our small business loans. That 
is going to tide us through, and we are going to help each 
other get, you know, the power turned back on and, you know, 
the plumbing and all that kind of stuff.
    So I think it was just a group, you know, tried mentality, 
that somebody was aware of it----
    Chairman Rubio. Got it.
    Mr. Benson [continuing]. And working the issue, and word of 
mouth really got it around.
    I would--to speak to that on how we might be able to make 
it better, I would like to--and I know I could have benefited 
myself.
    In preparing for the evacuation of our family--we left 
personally--I would have liked to have known, hey, when a storm 
hits, okay, it is one thing to consider life safety, but it is 
another thing to just be ready and prepared for the changes 
that you are going to experience.
    Whether your storm gets--whether your house gets impacted 
or not, you know, whether you can go home and you still have a 
house, or you are going to have to fix it, you know, here are 
the steps regardless that you are going to need to take in this 
time period because you are facing a 6-month, you know, 
obstacle here.
    And the very first thing is go ahead and get your 
application going before--you know, while you are evacuating, 
while you are sitting in a hotel room in upstate Florida, you 
know, looking at the storm hitting you, you know, on the 
nightly news. Like we can go through and get proactive about 
that stuff.
    And I would like to see the financial component of what it 
takes to rebuild the community built into the kind of ``what 
you should do in the event of a disaster.'' You know, from the 
very beginning, and say, you know, get your hurricane supplies, 
get your evacuation plans, but also, you know, be prepared with 
your--you know, with the website links, with, you know, how you 
are going to fill out the paperwork, what kind of amount you 
are going to be looking for, and go ahead and just get ahead of 
that.
    Realistically, the weeks or months times period it takes to 
get down, open your house up, go through, you know, a closing 
of a loan document and then finally getting the loan, that 
could be, you know, a month and a half or two months. And that 
is a critical time period where businesses need capital. We 
need, you know, to get ahead. And I would have liked to have 
known a little bit more about it and had those pieces coming in 
earlier on in my timeline.
    Chairman Rubio. It almost sounds like you are advocating 
for sort of a comprehensive pre-event----
    Mr. Benson. Right.
    Chairman Rubio [continuing]. You know, place where you can 
go and say, okay, I know I live in an area over X number of 
years, I am going to have this, and hopefully I will never need 
to use it, but here is a checklist of things that will be 
available to you if this happens. And sort of--I don't even 
know what the equivalent of it would be outside of the 
hurricane setting, but almost a pre-need portfolio.
    Mr. Benson. Yeah. The same way that you put your hurricane 
preparedness kit with batteries and flashlight and stuff 
together.
    Chairman Rubio. A post-event.
    Mr. Benson. You put your financial stuff together so that--
--
    Chairman Rubio. That is a great idea.
    Mr. Benson [continuing]. I can clean up my house. You know, 
I can pull the mold out of my house and know that like I am a 
phone call away from like getting a loan approved, and I don't 
need to go through a lot of the hoops while I am also trying to 
put my house back together.
    Chairman Rubio. Well, part of it is--and we dealt with this 
as we were trying to help people through it--you know, a lot of 
these forms and processes are all reliant on things like the 
internet and electricity.
    Mr. Benson. Right.
    Chairman Rubio. Which aren't available. Like go fax this 
paper, and it's like, well, I mean, there is not even a phone 
line that functions, or electricity.
    So that is a really good suggestion, and one that I don't 
know if we can systemize on a National level, but it is 
certainly one that for people that are in areas that you think 
may be impacted at some point in the future, in addition to 
having a hurricane preparedness kit for like surviving 7--I 
think they moved it from 3 days to 7 this year. But you also 
need to have some of those forms potentially even filled out 
and the documentation.
    Mr. Benson. Right. And FEMA or, you know, the Small 
Business Administration--I don't know whether they kind of open 
areas for loan--it has gone on a geographic basis for disaster 
loan kind of situations. But it would be great if the Small 
Business Administration could just say, you know, Florida, at 
some point in the future, may be impacted, so we are going to 
go ahead and like----
    Chairman Rubio. Pre-register.
    Mr. Benson [continuing]. Acknowledge that. And if folks 
want to pre-register, you know, while the storm is hitting, you 
know, while we are in the cone, and then while we are gathering 
all of our, you know, plans and supplies and we still have 
internet, you know, go ahead and just get those preparations 
done so that we can concentrate on our families, on our houses, 
knowing that that assistance is already lined up for us.
    Chairman Rubio. Mr. Gastesi, let me--that is a great idea 
and something that we are going to follow up and see how we can 
create something like that.
    The--you know, working with you and many of the local 
officials at the municipal level, one of the biggest things 
that we really focused on were the canals, and that was a--you 
talk about a real impediment. Those canals were just as 
important as the roads for a lot of--including your industry, 
but even for a recreational boat owner or what have you.
    And, you know, we still face some of these strange 
situations where they would say this money is to remove 
whatever is in there from this storm, but if you see something 
down there from the last storm, that cannot be moved. It was--
so I said just pretend all of it is from this one, you know.
    But anyway, the real question--and one of the decisions 
that was made, which I think was smart and important, was to go 
through the USDA process as opposed to the FEMA route. It is 
still--but a lot of that work has been done. Can you give us an 
update of where we are in the canal cleanup process at this 
point?
    Mr. Gastesi. Sure. Sure. Thank you for bringing that up. 
And if it wasn't for you, I don't think we would have gotten 
that $49 million.
    Chairman Rubio. You would have gotten it probably in 25 
years.
    [Laughter.]
    Mr. Gastesi. So, you were very instrumental in that, and 
thank you for that again.
    And I have to give you a quick story because that is the 
NRCS program, the watershed protection program. And I am old 
enough to know and remember in 1998 when the last time that 
program was used here in the Keys. I was living in Miami-Dade 
at the time, but we assisted.
    Back then, they were a lot more generous, like what you 
were saying. If it was in the canal, take it out. There was an 
environmental component to the program that has been lost. 
Frankly, Senator, the whole program, I think, has been hijacked 
by the folks that are worried about water column, water--flood 
protection, and they are forgetting the environmental 
component.
    The program is called the Natural Resources Conservation 
Service. Natural resources is natural resources. All they want 
to see now is water conveyance, flood protection, those kind of 
things.
    That was not the case back in 1998. As a matter of fact, in 
1998, they cleaned up all the canals. It was not nearly as bad, 
of course. They also did tree trimming as far as the mangrove 
trimming for the canals because those end up in the canals, 
also. They did not allow us to do that this time.
    If you see the jetty around Duck Key, that was built after 
the 1998 storm by this program. This time, they would not allow 
us to do any embankments, improvements, or anything like that.
    So, I think we have to look at the program. I think it is 
still the right program, but it has morphed in the wrong 
direction. And I think with your help, and with our help, and 
with everybody working together, we can go back and show them 
that environmental; or just carve ourselves out as a National 
Marine Sanctuary and the Florida Keys, a uniqueness of the 
Florida Keys.
    As you know, we have done that at the State level with your 
help, with the Areas of Critical State Concern. We can do 
something similar at the National level. We need to look at 
that.
    Now, where are we? We are doing very well. The money has 
been flowing. The folks that are running the program in 
Gainesville, the local office, have been fantastic. They have 
been working with us. They are very uncomfortable because they 
get a lot of pushback from Washington, but they have been 
working with us and we are nearly complete. Out of the $49 
million, I don't think we are going to get there. We might 
touch $30 million because, you know, they have rejected a lot 
of the canals.
    So there is still a lot of stuff being left behind and it 
is unfortunate, but it does not meet that check-it box now that 
they are saying water conveyance. It is not affecting water 
conveyance, so they are saying leave it there.
    Chairman Rubio. Yes. Just to describe to people, there are 
two issues. One is the program was actually created for 
potentially a separate, at the time, sort of thought process 
and did not exactly apply. So we had to--there would be some 
creativity in applying it to this because everybody wanted to 
do it, but they had to deal with the way it was written and so 
forth. We got through that.
    The second thing people do not realize is this work 
actually started before the money ever came down. The county, I 
believe, in many cases took on--fronted the money.
    Mr. Gastesi. Yes.
    Chairman Rubio. And we know that in the FEMA process, it 
has taken multiple years to get some of that money through the 
State and then down here. It moved a little quicker--
Agriculture is a little bit more nimble in getting it there.
    But what people need to understand is, you have a storm, 
you have sometimes to borrow the money to begin the work on 
these kinds--you cannot wait a year for it, for the check to 
get there. And then you run the risk of being rejected.
    Mr. Gastesi. Correct.
    Chairman Rubio. Or running into the next budget cycle and, 
in the interim, beginning to pay the interest, so the cost 
grows on it.
    So I did--I do think we learned from this experience some 
of the changes we want to see in the future because at the end 
of the day, I mean, this is going to be an ongoing challenge 
anytime there is any event that could push things out into the 
canal.
    I wanted to ask all of you here--I promised everyone we 
would be done by 11:30. So before we wrap up, the one issue 
that I am--remain concerned about is workforce housing, in 
particular.
    As we talk about bringing business back, as we talk--you 
need employees. And, you know, if you are further north, you 
could potentially live in Florida City or so forth and drive 
down. The further south and southwest you get, the harder and 
harder it becomes. You have to live locally.
    And I know that one of the concerns I always had was, as 
people look at rebuilding, are you going to rebuild housing 
that is affordable for people who work here? Or are you going 
to build something that you can rent out seasonally or year 
round for a lot of money?
    And so I always looked at that point and say, okay, imagine 
you are the owner of a piece of property that used to be this 
kind of housing on it, but now you get a chance to rebuild it. 
What do you rebuild? Do you rebuild volume, or do you rebuild 
high-end and sort of----
    Where are we on that issue? Because that, long term, is 
going to be another big issue. That is, not just housing the 
people that are helping rebuild, but housing people that are 
going to work and service and provide the services to these--to 
the industries that we are relying on.
    Mr. Gastesi. Sure. Sir, we are finding it for our own 
employees that we are having trouble keeping, right? So we are 
going to start building houses ourselves for our employees. 
Right now we only have three units throughout the whole Keys, 
and we are in the process of building 30 more. We are getting 
some of the grant money that is available and some of our own 
money and building housing for our own employees.
    And I think a lot of people are doing that. The military 
has been doing that for 200 years. They bring people down. They 
house them, also.
    So, I think at some of the hotels--the hotel that Stacey 
mentioned that was built here, they had 32 units right onsite 
for their workers.
    I think you are going to see more and more of that. We have 
to provide the housing, workforce housing, for the workers.
    And I like to say, everybody take care of their own. You 
know, if you are going to have a business here, you are going 
to have to provide housing at least for your core employees. 
And some of the successful businesses all through the Keys are 
already doing that, and they have been doing that through the 
years. So I think you are starting to see some of that.
    As far as the county is involved, we are going to start 
building houses for at least our core employees. Our employees 
will come in and then get themselves established and can buy a 
house, you know, 5, 6, 10 years down the road. But we are going 
to have a housing program that we are establishing as we speak.
    Chairman Rubio. Has that been an impediment on the 
hospitality side, as well?
    Ms. Mitchell. Sure, because as our average daily rates 
climb, we have become an upscale luxury destination. With that 
comes an expectation of service levels. And if you do not have 
staff to service your guests at that expected level, then you 
get bad reviews and a reduction in occupancy and then the 
trickle-down economics of that.
    But as Roman said, more and more hotels are providing 
lodging for their employees. And there is even a situation in 
Key West where a bar owner has taken matters into his own 
hands. He bought property; he is renovating it. And again, he 
is providing a living situation for his bartenders and his 
servers.
    So it is a great entrepreneurial spirit here where people 
are taking matters in their own hands. And those who are able 
to are just saying, okay, fine, I am going to provide housing 
so that I have a stable workforce, and I don't have to worry 
about being short-staffed and not delivering the service that 
our guests have come to expect.
    Chairman Rubio. Okay. Well, I think it is 11:31, so I 
apologize. I went over.
    But I do want to thank the three of you for being here 
today. This was very useful. I think we took from it a good 
update on how to improve the program in terms of awareness.
    Obviously, we took clearly away some of the ecological and 
environmental issues that we need to be focused on that are 
critical to it.
    We talked about housing.
    We talked about how to improve the programs in the future.
    And we talked about well-intentioned misinformation in some 
cases leading to long-term implications. And I think we really 
broke it out into particularly that season in what we call 
ending of the summer, April through late October, early 
November and the uncertainty that creates for lodging and 
related businesses. And, the incredible uncertainty it creates 
frankly every day.
    But the shorter someone's trip is on the fishing trip, the 
more difficult--it is one thing if you are going to be here 7 
to 10 days. You can play with that a little bit. You know, I am 
going to be there for one day, can you guarantee me this one 
day is going to work out? And then you pencil in. How can you 
plan business around that? So all of these are challenges.
    But this is a special place to me personally. It is one of 
the things that makes the State very unique. And we try to 
apply both the empirical evidence that we gather from data 
sets, but also the things I hear from people or experience 
myself. And, we are going to continue to be focused on that.
    And, when it relates to this committee, what we can do from 
the SBA standpoint to ensure that the programs that we have 
designed at the National and Federal level also are flexible 
enough to take into account unique places, such as this, and 
the unique challenges that it faces here.
    Again, I want to thank you all for being here and all those 
who attended.
    Just as part of the disclaimer language, you always have to 
give--the record for this hearing is going to remain open for 2 
weeks. If there are any statements or questions that people 
want submitted for the record--by the way, a lot of people--I 
do these field hearings. The record is important because when 
we file legislation or go back in the future and propose a 
program, we cite the record of testimony or the input people 
give as reasons why. It is what we justify for. We say, this is 
the reason why we are doing this. This is the reason why we are 
going to do it. And we can use the Congressional record for it.
    So if there are any statements or questions for the record, 
if you would submit them by the 18th of October at 5:00 p.m. so 
they can be a part of the final record.
    And with that, the hearing today is adjourned. Thank you, 
everyone, for--and for allowing us to use the City facilities.
    With that, the hearing is adjourned.
    [Whereupon, at 11:36 a.m., the hearing was adjourned.]
  

                                  <all>
</pre></body></html>
